Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0621n.06
No. 19-2054

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DENVER LEE,
Defendant-Appellant.

BEFORE:

)
)
)
)
)
)
)
)
)

FILED
Nov 03, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF MICHIGAN

BATCHELDER, STRANCH, and MURPHY, Circuit Judges.

ALICE M. BATCHELDER, Circuit Judge. Denver Lee, charged with being a felon in
possession of a firearm, agreed to stipulate that he was a felon and knew of his status so that the
government could not introduce evidence of his prior convictions. However, at trial, Lee took the
stand in his own defense and made what the district court found to be “an allegedly false statement”
about his previous possession of firearms. The court thus held that Lee “opened the door” to
impeachment evidence and permitted the government to introduce evidence of Lee’s 2005
conviction of being a felon in possession of a firearm. Lee appeals that evidentiary ruling. He
also raises on appeal several Rehaif-related claims and the district court’s decision to not hold an
evidentiary hearing on his ineffective-assistance-of-counsel (“IAC”) claim. For the following
reasons, we AFFIRM the judgment of the district court.

1a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 2

Case No. 19-2054, United States v. Lee

I.
In February 2018, four Detroit police officers on patrol observed two men, one of whom
was Lee, standing between two cars parked in the middle of the street. One of the officers shined
the cruiser’s spotlight on the men. With the light on him, Lee nervously grabbed the front center
pocket of his sweatshirt and quickly walked away. The officers approached Lee and noticed a
heavy bulge in his sweatshirt pocket. One of the officers frisked Lee and discovered a loaded
firearm (registered to Lena Safadi, described by Lee as his assistant). Another officer then
handcuffed Lee. Two other officers witnessed the entire encounter, and body cams worn by two
of the officers captured much of the incident.
A federal grand jury indicted Lee for being a felon in possession of a firearm, in violation
of 18 U.S.C. §§ 922(g)(1), 924(e). The trial was completed before the Supreme Court decided
Rehaif v. United States, 139 S. Ct. 2191 (2019), in which it held that to convict a defendant under
18 U.S.C. § 922(g) for being a felon in possession of a firearm, the government must prove beyond
a reasonable doubt that the defendant knew of his prohibited status. Id. at 2200 (“We conclude
that in a prosecution under 18 U.S.C. § 922(g) and § 924(a)(2), the Government must prove both
that the defendant knew he possessed a firearm and that he knew he belonged to the relevant
category of persons barred from possessing a firearm.”). Because they predated Rehaif, neither
the indictment nor the jury instructions included the knowledge-of-status element. Lee did not
object to either the indictment or to the jury instructions at the time.
Lee stipulated at trial that prior to his arrest, he “had been convicted of a felony, a crime
punishable by more than one year in prison, knew that he had been convicted of a felony, and had
not had his conviction expunged or his rights restored.” The government read that stipulation to
the jury during the trial and the district court repeated it when instructing the jury.

2

2a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 3

Case No. 19-2054, United States v. Lee

Before Lee testified in his defense, the government notified Lee and the court that if Lee
did testify, it intended to impeach him under Federal Rule of Evidence (“FRE”) 609(a) with three
of his prior convictions: two convictions for possession with intent to distribute a controlled
substance and one conviction—in 2005—for being a felon in possession of a firearm. Initially,
the court permitted the government to use only the two controlled-substance convictions because
the court was concerned that the 2005 firearm conviction posed a “danger that the jury would
consider the evidence as propensity evidence or character evidence, which would be an improper
purpose.”
Lee then took the stand. Under direct questioning, he testified that: “Lena [Lee’s assistant]
know I don’t want her to have them guns around me. I don’t want no guns. She know not to bring
no guns around me. . . . She knows I don’t have guns around me. I don’t do nothing, bro. I don’t
have nothing around me, because I’m always the hit.” After these statements, the government
sought permission from the court to introduce Lee’s 2005 firearm conviction in order to impeach
his testimony that he does not “have guns around [him].” The court permitted the firearm
conviction to be introduced, though it noted that its probative value fell “more in the area of Rule
608 than Rule 609 now, because he has made a prior -- he has made an allegedly false statement.”
Lee’s counsel objected immediately. The government questioned Lee about his 2005 firearm
conviction, which Lee admitted. The government then asked Lee why he had just “testified on
direct that [he doesn’t] like to be around firearms.” Lee responded that he made that statement
“Because of 2005. That’s why I don’t like to be around guns.”
After the defense rested, the court instructed the jury that the evidence about Lee’s prior
convictions, including the firearm conviction, was for impeachment purposes only, that the

3

3a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 4

Case No. 19-2054, United States v. Lee

evidence could not be used “for any other purpose,” and that it was “not evidence that he is guilty
of the crime that he is on trial for now.” The jury returned a guilty verdict.
Lee moved for a judgment of acquittal and for a new trial, which the district court denied.
A month later, Lee hired new counsel. The court permitted Lee to file a second motion for a new
trial based on IAC. The court held a hearing on that motion. But upon finding that the record was
not fully developed and that under Sixth Circuit precedent “the question of ineffective assistance
of counsel ought to be raised on collateral review,” the court denied the motion (though the court
noted that Lee could later raise the issue in a 28 U.S.C. § 2255 motion). The court sentenced Lee
to 180 months, the mandatory minimum under 18 U.S.C. § 924(e), and below the Guidelines range
of 210 to 262 months. Lee timely appealed.
II.
We first address Lee’s claim that the district court erred by permitting the government to
introduce evidence of his 2005 conviction for being a felon in possession of a firearm. “We review
evidentiary rulings for an abuse of discretion.” United States v. Chavez, 951 F.3d 349, 357-58 (6th
Cir. 2020). This means that we ask “whether the district court (1) misunderstood the law (here,
the Federal Rules of Evidence), (2) relied on clearly erroneous factual findings, or (3) made a clear
error of judgment.” Id. at 358. And “even if the district court abused its discretion, we may not
grant a new trial if the record gives us a ‘fair assurance’ that the verdict wasn’t ‘substantially
swayed’ by the evidentiary error.” Id. (quoting Kotteakos v. United States, 328 U.S. 750, 765
(1946)).
At trial, to prevent the government from introducing evidence of his prior convictions, Lee
stipulated that he was a felon and knew of his status as such. See Old Chief v. United States,
519 U.S. 172, 191–92 (1997). But the district court found that Lee “opened the door” to evidence

4

4a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 5

Case No. 19-2054, United States v. Lee

attacking his character for truthfulness when he testified that “I don’t have guns around me.” The
government then introduced evidence of Lee’s prior felon-in-possession conviction in order to
impeach his testimony about not being around guns.
Lee argues that because his attorney’s line of questioning was focused exclusively on
February 15, 2018 (the night of the incident in question), his statements did not open the door to
impeachment evidence. Lee first claims that he “was clearly speaking as to what happened that
day—not his entire lifetime,” and that the government misconstrues these statements as if Lee had
stated “he’s never been around guns at all.” Lee also argues that the court should understand his
testimony that “Because of [my] 2005 [conviction]. That’s why I don’t like to be around guns”
meant “that he did not like being around guns in 2018 since his 2005 conviction.”
But the district court could reasonably interpret his ambiguous testimony more broadly
than his counsel interprets his testimony on appeal. Indeed, counsel’s alternative arguments
themselves confirm the ambiguity in Lee’s testimony. Were Lee’s statements about only February
15, 2018? Or were they about his behavior post-2005? The statement “I don’t have guns around
me,” does not, on its own, establish for how long he had not had guns around him, or even if there
ever was a time that he had guns around him. The district court was also able to observe Lee’s
demeanor when making this statement, which could help clarify the message that Lee was trying
to convey to the jury. And the record is clear that Lee did previously have guns around him—at
least he did in 2005, when he was convicted of being a felon in possession of a firearm. For this
reason, we cannot say that the district court abused its discretion in interpreting Lee’s statements
broadly rather than narrowly, as Lee now urges.
Lee also claims that the admitted evidence unfairly prejudiced him because the probative
value was minimal and the risk of prejudice quite high, as he was on trial for the same offense as

5

5a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 6

Case No. 19-2054, United States v. Lee

that of his 2005 conviction. To be sure, there was a risk that the introduction of Lee’s prior firearm
conviction might prejudice him. Indeed, the district court initially declined the government’s
request to introduce evidence of the felon-in-possession conviction for impeachment purposes
because of the possibility that the evidence did carry a serious risk of prejudice to Lee. But that
assessment, which balanced prejudice concerns with the evidence’s probative and impeachment
value, changed once the district court found that Lee opened the door.
In order to mitigate the risk of prejudice, the district court properly instructed the jury about
the purposes for which the evidence of the prior conviction could and could not be used. While
we have held that “sometimes evidence is so prejudicial that the risk of a jury’s improper use of
the evidence cannot be quashed by a judge’s instructions,” United States v. Asher, 910 F.3d 854,
862 (6th Cir. 2018) (citing United States v. Jenkins, 593 F.3d 480, 486 (6th Cir. 2010)), those cases
involved the government’s seeking to admit evidence to prove an element of the charged offense,
not to impeach the defendant’s testimony after the defendant “opened the door.” Here, we cannot
conclude that the government was needlessly “piling on,” when other evidence was available.
Cf. Jenkins, 593 F.3d at 486. Rather, we find that the government was seeking to impeach Lee’s
testimony that he never had guns around him even though he had previously been convicted of
being a felon in possession and thus of having a gun around him.
The district court correctly understood FRE 403, 608, and 609, and was cognizant of the
risk of prejudice such evidence might create. The court initially prevented the government from
introducing the evidence, but reassessed once Lee took the stand and made what the court found
to be an “allegedly false statement” that could be impeached by that evidence. The court did not
misunderstand the law or rely on any clearly erroneous factual findings, either of which would be
sufficient for Lee to prevail. See Chavez, 951 F.3d at 358. And, after a careful review of the

6

6a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 7

Case No. 19-2054, United States v. Lee

record, we cannot say that the district court’s reassessment of whether the evidence’s prejudice
value substantially outweighed its probative value was a “clear error of judgment.” See id.
Consequently, we find that the district court did not abuse its discretion.1
III.
Lee also brings several Rehaif-based claims. In 2019, the Supreme Court held that “in a
prosecution under 18 U.S.C. § 922(g) and § 924(a)(2), the Government must prove both that the
defendant knew he possessed a firearm and that he knew he belonged to the relevant category of
persons barred from possessing a firearm.” Rehaif, 139 S. Ct. at 2200. Lee argues that (1) his
indictment was faulty, (2) his conviction was based on an improper variance or constructive
amendment, (3) the district court lacked subject-matter jurisdiction because no federal offense was
charged due to the faulty indictment, (4) the jury instructions were improper, and (5) there was
insufficient evidence to support his conviction. We have decided a number of Rehaif-based claims
over the past year and there is binding circuit precedent on each of Lee’s claims. Accordingly, we
affirm the judgment of the district court.
1. Indictment
“Whether an indictment adequately charges an offense is a question of law subject to de
novo review.” United States v. Cor-Bon Custom Bullet Co., 287 F.3d 576, 579-80 (6th Cir. 2002).
“An indictment adequately charges an offense if it (1) includes the elements of the offense intended
to be charged, (2) notifies the defendant of ‘what he must be prepared to meet,’ and (3) allows the
defendant to invoke a former conviction or acquittal in the event of a subsequent prosecution.” Id.

1

The government also argues that even if the district court did err, the error was harmless because of the overwhelming
evidence against Lee, i.e., that three officers witnessed the incident and body camera footage corroborated their
testimony and that Lee’s only defense was that the officers somehow planted Lee’s assistant’s gun on him. While an
error is harmless when, as here, “the record evidence of guilt is overwhelming,” United States v. Brown, 888 F.3d 829,
836 (6th Cir. 2018) (citation omitted), we affirm the district court on the grounds that it did not abuse its discretion in
admitting the evidence because Lee “opened the door” through his testimony.

7

7a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 8

Case No. 19-2054, United States v. Lee

at 580 (quoting Russell v. United States, 369 U.S. 749, 763-64 (1962)). But because Lee did not
initially challenge his indictment, we review only for plain error. United States v. Ward, 957 F.3d
691, 694 (6th Cir. 2020). “Thus, we will reverse only if we find (1) error, (2) that was plain or
obvious, (3) that affected the defendant’s substantial rights, as well as (4) the fairness of the judicial
proceedings.” United States v. Conley, 802 F. App’x 919, 922 (6th Cir. 2020). “This standard
applies even when the law changes after the district court proceedings.” Id. That is, the error must
be plain according to settled circuit law at the time of appellate review, whether or not the circuit
law was settled at the time of the district court’s decision. Henderson v. United States, 568 U.S.
266, 273–74 (2013). Similarly, if the district court’s decision was correct according to settled
circuit law at the time, but a subsequent appellate decision changed the law, the appellate court
can find the district court’s decision erroneous. Id. (citing Johnson v. United States, 520 U.S. 461,
468 (1997)). And “[a]n indictment that was not challenged below is construed liberally in favor
of its sufficiency.” Ward, 957 F.3d at 695 (internal quotation marks and citation omitted).
Our precedent establishes that a pre-Rehaif indictment that does not contain the knowledgeof-status element does not necessarily fail to properly charge a violation of 18 U.S.C. § 922(g).
See id. at 694-95. “[T]he requirement that an indictment allege all of the elements of the offense
charged . . . seeks primarily to ensure that an accused is reasonably informed of the charge made
against him so that he can prepare a defense.” Id. at 694 (quoting Cor-Bon Custom Bullet Co., 287
F.3d at 580). Lee claims that if he had known of the knowledge-of-status element, he could have
presented a defense to that element, “possibly beginning with a decision not to take the stand.”
But that argument does not explain how Lee’s not taking the stand would serve as a defense to the
knowledge-of-status element. And Lee’s not taking the stand likely would not be an effective
defense because we have held that “where there is clear evidence in the record from which to infer

8

8a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 9

Case No. 19-2054, United States v. Lee

that the defendant knew he was a felon,” id. at 695, such as in this case where Lee served several
years in prison for being a felon in possession of a firearm, “[n]o reasonable juror could have
believed that he did not know” of his status, United States v. Hobbs, 953 F.3d 853, 858 (6th Cir.
2020). And, finally, “the fact that the defendant in Rehaif ultimately prevailed at the Supreme
Court demonstrates that [the defendant in this case] could have made a similar objection to the
indictment’s omission of a knowledge-of-status element, but failed to do so.” Ward, 957 F.3d at
694-95. So, we cannot say that Lee’s substantial rights were affected and thus, on plain-error
review, his challenge to his indictment fails.2 See id.
2. Improper Variance or Amendment
Because he believes that his indictment was invalid, Lee argues that an improper variance
or amendment occurred. That is, because his indictment was missing the knowledge-of-status
element, Lee claims that, in effect, he was convicted of a different offense (i.e., the § 922(g)(1)
offense that requires proof that the defendant knew of his prohibited status) than the one for which
he was indicted. But because we hold that Lee’s indictment was proper under § 922(g)(1), he was
both indicted and convicted of the same offense, and his improper-variance and constructiveamendment arguments necessarily fail.3

Lee claims that the government waived any challenge to Lee’s grand jury presentment, due process, and double
jeopardy arguments that he has made on appeal to challenge his indictment. The government did argue that Lee’s
indictment adequately charged him with being a felon in possession of a firearm, an argument with which we agree.
Because we hold the indictment was valid, we need not address whether the government waived any specific
arguments.
2

3

Lee argues that the government did not respond to his improper-variance argument and thus waived any challenge.
It is true that the government did not respond, or even refer, to Lee’s improper-variance and constructive-amendment
arguments. But those arguments become relevant only if Lee’s indictment was invalid. Because we hold that Lee’s
indictment adequately charged him with being a felon in possession of a firearm, his improper-variance or
constructive-amendment claim must fail.

9

9a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 10

Case No. 19-2054, United States v. Lee

3. Jurisdiction
Similarly, because he believes that his indictment was improper, Lee argues that the district
court did not have subject-matter jurisdiction. See United States v. Martin, 526 F.3d 926, 934 (6th
Cir. 2008) (“To successfully challenge the district court’s jurisdiction, a defendant who enters a
guilty plea must establish that the face of the indictment failed to charge the elements of a federal
offense.”). Specifically, Lee argues that “the indictment failed to charge that Lee knew he
possessed a firearm and that he knew he belonged to the relevant category of persons barred from
possessing a firearm.” First, the indictment stated clearly that Lee “knowingly possessed a firearm,
that is, a Smith & Wesson .380 caliber handgun,” R. 10, Page ID #20, so Lee’s claim that the
indictment did not charge that he knew he possessed a firearm fails. Second, the pre-Rehaif
indictment did not charge that Lee knew of his prohibited status, but as we concluded above, Lee’s
indictment did not contain any plain error. Moreover, even if his indictment were faulty, Lee’s
jurisdictional argument would still fail because “defects in an indictment do not deprive a court of
its power to adjudicate a case.” United States v. Cotton, 535 U.S. 625, 630 (2002). Indeed, we
recently rejected the same jurisdictional argument made by a defendant whose pre-Rehaif
indictment also did not include the knowledge-of-status element. See Hobbs, 953 F.3d at 856-57
(noting that “our sister circuits have rejected the notion that an indictment’s failure to allege the
‘knowledge-of-status’ element required by Rehaif deprives the court of jurisdiction” and collecting
cases); see also United States v. Watson, 820 F. App’x 397, 399 (6th Cir. 2020) (same). We
therefore reject Lee’s subject-matter-jurisdiction claim as well.
4. Jury Instruction
Because Lee did not initially challenge his jury instructions, we again review only for plain
error. Ward, 957 F.3d at 694. “Thus, we will reverse only if we find (1) error, (2) that was plain

10

10a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 11

Case No. 19-2054, United States v. Lee

or obvious, (3) that affected the defendant’s substantial rights, as well as (4) the fairness of the
judicial proceedings.” Conley, 802 F. App’x at 922.
In light of Rehaif, the district court plainly erred by not including the knowledge-of-status
element. See id. at 923. But our precedent establishes clearly that because of his stipulation and
previous criminal history, Lee cannot demonstrate that his substantial rights were affected by the
error. “Although the stipulation of a prior felony does not automatically establish knowledge of
felony status, it is strongly suggestive of it.” Ward, 957 F.3d at 695 (quoting Conley, 802 F. App’x
at 923). Here, Lee stipulated that he “had been convicted of a felony, a crime punishable by more
than one year in prison, knew that he had been convicted of a felony, and had not had his conviction
expunged or his rights restored.” So, unlike the defendants in Conley and Ward, Lee actually
stipulated that he knew of his felony status, not just that he had been previously convicted of a
felony. Cf. id.; Conley, 802 F. App’x at 923. Moreover, “where there is clear evidence in the
record from which to infer that the defendant knew he was a felon, failure to instruct the jury does
not affect the defendant’s substantial rights or the fairness or integrity of the proceedings.” Ward,
957 F.3d at 695. As in Ward, here “the record ‘reveals no reason to think that the government
would have had any difficulty at all in offering overwhelming proof that [the defendant] knew that
he’ was a felon.” Id. (quoting United States v. Burghardt, 939 F.3d 397, 404 (1st Cir. 2019)). In
addition to stipulating that he knew of his felon status, Lee served nearly seven years in prison for
his 2005 firearm conviction, and “[n]o reasonable juror could have believed that [the defendant]
did not know he had been convicted . . . of a crime punishable by imprisonment for a term
exceeding one year,” when the defendant had previously served a multiple-year stint in prison.
Hobbs, 953 F.3d at 858 (internal quotation marks and alterations omitted). Accordingly, we find
that Lee’s jury-instruction challenge fails as well.

11

11a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 12

Case No. 19-2054, United States v. Lee

5. Sufficiency of the Evidence
Lee next challenges whether the evidence presented at his trial was sufficient to support
his § 922(g) conviction. “When reviewing the sufficiency of the evidence, ‘the relevant question
is whether, after viewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable doubt.’”
Ward, 957 F.3d at 695 (quoting Jackson v. Virginia, 443 U.S. 307, 319 (1979)). “In making a
sufficiency-of-the-evidence determination, we must draw all reasonable inferences in favor of the
government, and we will not ‘weigh the evidence, consider the credibility of witnesses, or
substitute [our] judgment for that of the jury.’” Id. at 695-96 (quoting United States v. Ferguson,
23 F.3d 135, 140 (6th Cir. 1994)). The only element that Lee argues that the government failed to
prove beyond a reasonable doubt is the knowledge-of-status element.
When the defendant makes “an Old Chief stipulation at trial” acknowledging that he is a
convicted felon, “[t]he jury could have inferred from these statements that [the defendant] also
knew that he was a felon.” Id. at 696 (emphasis added); see also Conley, 802 F. App’x at 924
(“[T]he jury was entitled to infer knowledge of prohibited status––the second element––from [the
defendant’s] stipulation that he had a prior felony conviction.”). And, as noted, Lee’s Old Chief
statement exceeded the defendant’s stipulation in Ward; Lee stipulated not only that he had been
convicted of a felony, but that he “knew that he had been convicted of a felony.” Lee also had
been previously convicted of being a felon in possession of a firearm, which is enough for a jury
to infer that Lee knew of his prohibited status. Conley, 802 F. App’x at 924 (“At a minimum, the
prior conviction for being a felon in possession of a firearm proved beyond a reasonable doubt that
[the defendant] had the knowledge required by Rehaif.” (cleaned up) (quoting United States v.
Benamor, 937 F.3d 1182, 1189 (9th Cir. 2019))). We therefore find that there was more than

12

12a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 13

Case No. 19-2054, United States v. Lee

sufficient evidence to support proof beyond a reasonable doubt that Lee knew of his prohibited
status. Because this is the only element that Lee challenges on appeal, Lee’s sufficiency-of-theevidence claim fails.
IV.
Finally, we turn to Lee’s claim that the district court erred by declining to hold an
evidentiary hearing on Lee’s IAC claim until after his direct appeal. Lee is not bringing an IAC
claim in this appeal; he challenges only the district court’s decision to deny his motion for an
evidentiary hearing to develop the record on the IAC issue. “We review the denial of an
evidentiary hearing for abuse of discretion.” United States v. Saunders, 178 F. App’x 484, 488
(6th Cir. 2006) (explaining that “whether the district court erred in failing to hold an evidentiary
hearing is before us, not whether [the defendant’s] counsel was actually ineffective”). “A district
court abuses its discretion where it ‘relies on clearly erroneous findings of fact, improperly applies
the law or uses an erroneous legal standard.’” Id. (quoting United States v. Dixon, 413 F.3d 540,
544 (6th Cir. 2005)).
As Lee acknowledges, the Sixth Circuit’s general rule is that we “typically do not address
ineffective assistance of counsel claims on direct appeal because the record bearing on that
allegation has not yet been sufficiently developed.” Conley, 802 F. App’x at 924 (declining to
review the defendant’s “ineffective assistance arguments at this juncture because he can raise them
in a § 2255 motion”). But “[a]n exception to this principle exists for cases in which the record is
adequately developed to allow the court to properly assess the merits of the issue.” United States
v. Fortson, 194 F.3d 730, 736 (6th Cir. 1999).
Lee argues that, with an evidentiary hearing, the record could have been developed. Lee’s
main contention is that the district court was wrong to reason that Sixth Circuit precedent required

13

13a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 14

Case No. 19-2054, United States v. Lee

it not to hold an evidentiary hearing and that the court abused its discretion by applying the wrong
legal standard (i.e., by finding that it was required to deny Lee’s motion to have an evidentiary
hearing). But the district court did not state that it was required to deny the motion for an
evidentiary hearing; the court instead concluded that it would be more appropriate to have the issue
considered on collateral review.
Here is the district court’s explanation in full:
The Sixth Circuit has basically said that the question of ineffective assistance of
counsel ought to be raised on collateral review. There are certain exceptions to that
rule, but they are very narrow exceptions, and that is generally when there is a -when the question can be decided without developing a record or when it is
apparent from the record that the performance was so lopsided that that call can be
made.
Now, the Supreme Court, in the case of [Massaro v. United States] decided in 2003,
was urged by the Government to adopt a per se rule, hard and fast, that ineffective
assistance of counsel claims cannot be raised except on -- under 2255 motions, and
the Supreme Court said that it would not go that far.
But the Court did note that it did not hold, quoting, “That ineffective assistance
claims must be reserved for collateral review. There may be cases in which trial
counsel’s ineffectiveness is so apparent from the record that appellate counsel will
consider it advisable to raise the issue on direct appeal. There may be instances,
too, when obvious deficiencies in representation will be addressed by an appellate
court sua sponte.”
In those cases, the claim ought to be raised or can be raised on direct review or in a
motion before the trial court, but this is not one of those cases. The Sixth Circuit
has taken a more restrictive approach allowing for the fact that a motion based on
ineffective assistance of counsel could be raised in the trial court or the issue can
be addressed on direct review. But the vast majority of cases and the clear
preference is to handle those in a collateral motion, such as a motion under Section
2255.
And the reason is because, as is manifest here, many times an evidentiary record
has to be developed. Trial counsel, who may or may not be the same, needs to be
interviewed. If there are witnesses, those witnesses have to be interviewed and
questions raised as to whether there was an adequate investigation whether the
witness has something to say that could be helpful to the defense. And so both on
the question of deficient performance and prejudice, an evidentiary record needs to
be developed, and I would emphasize that this case is pretty much the archetype for
such a situation.

14

14a

Case: 19-2054

Document: 42-2

Filed: 11/03/2020

Page: 15

Case No. 19-2054, United States v. Lee

So I’m going to deny the motion for new trial under Rule 33 without prejudice.
Mr. Lee is free to raise this issue again in a motion filed under Section 2255 of Title
28.
R. 90, Page ID #1179-80 (citing Massaro v. United States, 538 U.S. 500, 508 (2003)).
The district court did not claim that it was required to not hold an evidentiary hearing. The
district court instead discussed the rationale behind this court’s general rule that IAC claims be
reserved for collateral review rather than heard on direct appeal and found that those reasons
applied to this case as well. Furthermore, Lee does not cite any case or other authority for the
proposition that a district court’s alleged misunderstanding that it was required—as opposed to
permitted or encouraged—not to hold a hearing is a mistake that would qualify as an abuse of
discretion. Because the district court accurately summarized the Supreme Court’s and this court’s
precedent, and properly followed that precedent, we find that the court did not “improperly appl[y]
the law or use[] an erroneous legal standard.” Dixon, 413 F.3d at 544. Accordingly, we find that
the court did not abuse its discretion by declining to hold an evidentiary hearing on Lee’s IAC
claim. This holding does not prevent Lee from later bringing his IAC claim on collateral review.
V.
For the foregoing reasons, we AFFIRM the judgment of the district court.

15

15a

Case: 19-2054

Document: 48-1

Filed: 12/03/2020

Page: 1

No. 19-2054
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,

FILED

Dec 03, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
DENVER LEE,
Defendant-Appellant.

ORDER

BEFORE: BATCHELDER, STRANCH, and MURPHY, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

16a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1143

Page 1 of 7

UNITED STATES DISTRICT COURT
Eastern District Of Michigan
UNITED STATES OF AMERICA
v.
DENVER LEE,
THE DEFENDANT:
☐ pleaded guilty to count(s)
☐
☐

§
§
§
§
§
§
§

JUDGMENT IN A CRIMINAL CASE
Case Number: 0645 2:18CR20198 (1)
USM Number: 56423-039
David S. Steingold
Defendant’s Attorney

1 of the Indictment

pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18 U.S.C. § 922(g)(1), 924(e), Felon in Possession on a Firearm, Armed Career Criminal

Offense Ended
2/15/2018

Count
1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.
August 29, 2019
Date of Imposition of Judgment

s/David M. Lawson
Signature of Judge

The Honorable David M. Lawson
United States District Judge
Name and Title of Judge

September 9, 2019
Date

17a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1144

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7
Judgment -- Page 2 of 7

Denver Lee
0645 2:18CR20198 (1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of 180
months. The imposition of a fine, the costs of incarceration and the costs of supervision are waived due to the defendant’s lack of
financial resources.

☒ The court makes the following recommendations to the Bureau of Prisons:
-

Designation to a facility with a comprehensive drug treatment program.
Designation to a facility that can address the defendant’s mental health, such as Butner FMC, Devens FMC, Rochester
FMC, Carswell FMC, Forth Worth FMC or Lexington FMC.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

a.m.

☐

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on to
at, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

18a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1145

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7
Judgment -- Page 3 of 7

Denver Lee
0645 2:18CR20198 (1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of three years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)

4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

5.

7.

☐

seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

The defendant must comply with the standard conditions that have been adopted by this court as well as with any
additional conditions on the attached page.

19a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1146

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7
Judgment -- Page 4 of 7

Denver Lee
0645 2:18CR20198 (1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at the www.uscourts.gov.
Defendant’s Signature

Date

20a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1147

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7
Judgment -- Page 5 of 7

Denver Lee
0645 2:18CR20198 (1)

SPECIAL CONDITIONS OF SUPERVISION
1. The defendant must not use or possess alcohol in any consumable form, nor shall the defendant be in the
social company of any person whom the defendant knows to be in possession of alcohol or illegal drugs
or frequent an establishment where alcohol is served for consumption on the premises, with the exception
of restaurants.
2. The defendant must participate in a program approved by the probation department for substance abuse,
which may include testing to determine if the defendant has reverted to the use of drugs or alcohol, if
necessary.
3. The defendant must participate in a program approved by the probation department for mental health
counseling, if necessary.
4. The defendant must submit to a psychological/psychiatric evaluation as directed by the probation officer,
if necessary.
5. The defendant must take all medications as prescribed by a physician whose care he is under, including a
psychiatrist, in the dosages and at the times proposed. If the defendant is prescribed a medication, he must
take it, and the defendant shall not discontinue medications against medical advice.

21a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1148

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7
Judgment -- Page 6 of 7

Denver Lee
0645 2:18CR20198 (1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*
Fine
Assessment
N/A
Waived
TOTALS
$100.00

Restitution
N/A

☐ The determination of restitution is deferred until An Amended Judgment in a Criminal Case (AO245C) will be entered after
such determination.

☐ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

22a

Case 2:18-cr-20198-DML-APP ECF No. 86 filed 09/09/19

PageID.1149

AO 245B (Rev. 09/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7
Judgment -- Page 7 of 7

Denver Lee
0645 2:18CR20198 (1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☒ Lump sum payments of $100.00 due immediately.
☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

☐

E, or

☐

F below; or

☐

C,

☐

D, or

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal (e.g., weekly, monthly, quarterly) installments of $ over a period of

☐

F below); or

(e.g., months or years), to commence (e.g., 30 or 60 days) after the date of this judgment; or
D

☐ Payment in equal (e.g., weekly, monthly, quarterly) installments of $ over a period of
(e.g., months or years), to commence (e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

E

☐ Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from

imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time;
or

F

☐ Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
Restitution is joint and several with the following co-defendants and/or related cases, in the amount specified below:
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

☐ Defendant shall receive credit on «dft_his_her» restitution obligation for recovery from other defendants who contributed to
the same loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.

☐
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

23a

